No. 20-915
________________________________________________
IN THE

Supreme Court of the United States
_________________________________

UNICOLORS, INC.,
Petitioner,
v.
H&M HENNES & MAURITZ, L.P.,
Respondent.
_________________________________
On Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
________________________________________________
Brief of National Retail Federation as Amicus
Curiae in Support of Respondent
________________________________________________
STEPHANIE A. MARTZ
NATIONAL RETAIL FEDERATION

1101 New York Ave, NW
Suite 1200
Washington, DC 20005

SAMUEL G. BROOKS
Counsel of Record
CALL & JENSEN, APC
610 Newport Center Dr.
Suite 700
Newport Beach, CA 92660
(949) 717-3000
sbrooks@calljensen.com

Counsel for Amicus Curiae.
________________________________________________

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ……………………………ii
INTEREST OF AMICUS CURIAE ……………………1
SUMMARY OF ARGUMENT …….…………………….2
ARGUMENT ……………………………………………...6
I.

Section 411(b)(1)(A)’s “knowledge” prong strikes
the proper balance between the interests of
copyright owners and the public. ........................ 6

II. The predictions of dire consequences resulting
from the Ninth Circuit’s straightforward
interpretation of Section 411(b) are unfounded.11
III. District courts must request the Register of
Copyrights’
advice
regarding
inaccurate
information in any case where inaccuracy is
properly alleged. .................................................13
IV. Interpreting Section 411(b)(1)(A) as it is written is
necessary to stem the flood of litigation by
copyright trolls. ...................................................16
V. Conclusion. ..........................................................30

ii
TABLE OF AUTHORITIES
CASES
Advisers, Inc. v. Wiesen-Hart, Inc.,
238 F.2d 706 (6th Cir. 1956) ..................................13
DeliverMed Holdings, LLC v. Schaltenbrand,
734 F.3d 616 (7th Cir. 2013) ..............................5, 14
Feist Pubs., Inc. v. Rural Tel. Serv. Co., Inc.,
499 U.S. 340 (1991) ................................................20
Gold Value Int’l Textile, Inc. v. Sanctuary Clothing,
LLC, 925 F.3d 1140 (9th Cir. 2019) ......................12
Safeco Ins. Co. of Am. v. Burr,
551 U.S. 47 (2007) ..................................................11
Skidmore as Tr. for Randy Craig Wolfe Tr. v. Led
Zeppelin, 952 F.3d 1051 (9th Cir. 2020)................20
Unicolors, Inc. v. Charlotte Russe, Inc.,
2015 WL 3477123 (C.D. Cal. June 1, 2015) ..........20

iii
Walker v. Forbes, Inc.,
28 F.3d 409 (4th Cir. 1994) ....................................22
FEDERAL STATUTES
17 U.S.C. § 101 ....................................................10, 12
17 U.S.C. § 302(a) ....................................................... 6
17 U.S.C. § 408(a) ....................................................... 6
17 U.S.C. § 410(c) ......................................................19
17 U.S.C. § 411 .................................................. passim
17 U.S.C. § 412 ..........................................................28
17 U.S.C. § 504(a) ................................................18, 22
17 U.S.C. § 504(b) ................................................22, 23
17 U.S.C. § 504(c) ................................................23, 25
17 U.S.C. § 505 ....................................................15, 18
FEDERAL RULES
Fed.R.Civ.P. 11 ..........................................................15

iv
FEDERAL REGULATIONS
37 C.F.R. § 202.3(b)(4) (2011)............................3, 7, 12
37 C.F.R. § 202.3(b)(4)(i)(A) (2011) ...........................10
37 C.F.R. § 202.3(c)(2), (3) .......................................... 9
37 C.F.R. § 202.3(c)(3)(iii)..........................................11
37 C.F.R. § 202.4......................................................... 7

1
INTEREST OF AMICUS CURIAE 1
Established in 1911, the National Retail Federation (“NRF”) is the world’s largest retail trade association. Retail is by far the largest private-sector employer in the United States. It supports one in four
U.S. jobs—approximately 52 million American workers—and contributes $3.9 trillion to annual GDP.
Many of NRF’s members participate in the retail apparel market. In the past two decades, this market has
seen a deluge of copyright litigation, driven almost entirely by a small handful of U.S. fabric converters.
NRF fully supports the right of copyright owners to
enforce their legitimate rights in court. But over the
years it has become apparent that claims brought by
the most prolific fabric design litigants—and Unicolors
in particular—for the most part do not involve any
wrongdoing by retailers or their vendors. Nor do these
claims merely seek to remedy alleged harms suffered
by these plaintiffs. Rather, a huge percentage of cases
are brought as part of a cottage industry of litigationfor-profit.
Copyrights for basic fabric designs are worth very
little—they ordinarily sell for only a few hundred dollars in the open market—but a handful of companies,
including Unicolors, have discovered that by suing retailers, they can transform a copyright worth almost
nothing into a settlement worth tens, if not hundreds,
1 Counsel for all parties have filed blanket consents to the filing
of amicus briefs. In accordance with Rule 37.6, amicus confirms
that no party or counsel for any party authored this brief in whole
or in part, and that no person other than amicus or its counsel
made any monetary contribution intended to fund the preparation or submission of this brief.

2
of thousands of dollars. This handful of companies utilizes copyright law not to encourage creativity, but rather, like vampires, to suck the lifeblood of the retail
apparel industry. NRF and its members have an interest in this case because interpreting the Copyright Act
as it is written will promote an accurate Register, and
will help to stem the ability of copyright owners like
Unicolors to abuse the copyright law for their own enrichment at the expense of retailers.
SUMMARY OF ARGUMENT
By making registration a prerequisite to enforcing
a copyright in Court, the Copyright Act places a minimal burden on creators to secure all the benefits of copyright ownership. While the registration requirements
are not difficult to satisfy, copyright owners are expected to be careful, and provide only accurate information when applying for registration. Section 411(b)
of the Copyright Act gives teeth to this expectation.
Regardless of intent, the statute provides a consequence for providing materially inaccurate information with knowledge of the inaccuracy. As such, copyright owners have an incentive to exercise proper care
in the application process.
Here, whether intentionally or carelessly, Unicolors knowingly included inaccurate information in its
application regarding the publication of the works to
be registered. In an effort to save money on registration fees, Unicolors included multiple designs in a single application for registration. By applying for registration of multiple designs as a single work, Unicolors
represented to the Copyright Office that all the de-

3
signs were published together in a “single unit of publication” on a particular date. See 37 C.F.R.
§ 202.3(b)(4) (2011). That representation was not accurate.
As established by the evidence at trial, several of
the designs were not published on the date stated in
the registration, and they were certainly not included
with the other designs in any single unit of publication. Had the Copyright Office known the application
included designs that were not included in a single
unit of publication, 37 C.F.R. § 202.3(b)(4) would have
prohibited registration of the claim as a single work. It
is anticipated that, after referral, the Register of Copyrights will confirm this inaccuracy, if known, would
have resulted in refusal of registration.
The evidence established that the individual who
certified Unicolors’ application—Nader Pazirandeh—
knew the designs included in the application were not
published together as a single unit on the date stated
in the application. However, Unicolors argued it
should not suffer the consequence of Section 411(b) because Respondent had not proved he intended to deceive the Copyright Office. Unicolors petitioned for certiorari based on that same contention, but has since
abandoned the argument in its merits brief. Unicolors
now argues Section 411(b) cannot apply because Mr.
Pazirandeh somehow believed the information was accurate—even though he cannot point to any interpretation of “single unit of publication” that would reasonably apply to the facts available to him.
As noted by Respondent, the question Unicolors
presented in its merits brief does not match the question for which this Court granted certiorari. But to the

4
extent the Court is inclined to entertain the novel
question presented—i.e., whether the Copyright Act
requires copyright owners to actually confirm the information in the application is accurate—it must reject
Unicolors’ interpretation of Section 411(b).
Adopting Unicolors’ interpretation would create serious mischief, and would open the door for even more
“copyright trolls” to embark on campaigns of litigation
for profit. No reasonable person could conclude that
Unicolors’ actions with respect to the fabric designs at
issue—i.e., placing some of them in a showroom on a
particular date, while holding others back to be distributed privately—constituted publication in a “single unit of publication.” Regardless of whether distribution to private clients could be considered publication of the “confined” designs, there is no reasonable
interpretation of “single unit” that could make the designs included in Unicolors’ application eligible for registration as a single work. The only way Mr.
Pazirandeh could have not known the publication information in the application was inaccurate is if he
completely failed to acquaint himself with the facts he
certified, or if he wholly disregarded the meaning of
the terms “publication” and “single unit.”
With respect to the portion of the question presented that asks whether Section 411(b) requires referral to the Copyright Office “where there is no . . .
material error” in the registration, Petitioner and several of its amici agitate for a rule that ignores the statutory language. Citing a decision from the Seventh
Circuit, they argue that district courts may refuse to
refer a case to the Register of Copyrights unless the

5
defendant first “establish[es] that the other preconditions to invalidity are satisfied,” or, in other words,
“demonstrate[s] that (1) the registration application
included inaccurate information; and (2) the registrant
knowingly included the inaccuracy in his submission
to the Copyright Office.” DeliverMed Holdings, LLC v.
Schaltenbrand, 734 F.3d 616, 625 (7th Cir. 2013). This
rule flies in the face of the statute’s plain language.
According to the statute referral is mandatory “[i]n
any case in which inaccurate information . . . is alleged.” 17 U.S.C. § 411(b)(2) (emphasis added). To the
extent the rule described in DeliverMed Holdings permits a district court to refuse referral unless a defendant first proves the elements of Section 411(b)(1), it
must be disapproved.
Finally, interpreting Section 411(b) as it is written
is necessary—though by no means sufficient—to stem
the flood of litigation-for-profit that has plagued the
retail industry in recent years. Conversely, adopting
Unicolors’ proposed interpretation will spur even more
troll-like behavior. To the extent Unicolors predicts injustice to copyright owners if the Ninth Circuit’s opinion stands, those concerns are unfounded. Requiring
copyright owners to exercise at least some care in following the rules for registration will not give infringers a “get out of jail free” card. Nor will it penalize copyright owners who make inadvertent mistakes. At
worst, it will encourage copyright owners who wish to
pursue court cases to check their registrations for material inaccuracies, and cure errors prior to bringing
suit.

6
ARGUMENT
I.

Section
411(b)(1)(A)’s
“knowledge”
prong strikes the proper balance between the interests of copyright owners
and the public.

Under the Copyright Act, registration is not required to secure a copyright—the copyright subsists
from creation—but it is a mandatory prerequisite for
filing a civil action for infringement of United States
works. See 17 U.S.C. §§ 302(a), 408(a), 411(a). Moreover, a certificate of registration that contains inaccurate information still satisfies the registration requirement unless “(A) the inaccurate information was included on the application for copyright registration
with knowledge that it was inaccurate; and (B) the inaccuracy of the information, if known, would have
caused the Register of Copyrights to refuse registration.” Id. § 411(b)(1). In any case where a defendant
alleges inaccuracy in a registration certificate, the district court “shall request the Register of Copyrights to
advise the court whether the inaccurate information,
if known, would have caused the Register of Copyrights to refuse registration.” Id. § 411(b)(2). The issue
whether the plaintiff included the inaccurate information in his or her application “with knowledge that
it was inaccurate,” id. § 411(b)(1)(A), is a question of
fact to be determined by the district court.
This registration regime strikes a balance between
the interests of copyright owners and the public. On
the one hand, owners need not fear the loss of their
rights if they fail to register, and they suffer no consequences for errors that are inadvertent or immaterial.

7
On the other hand, the public benefits from an accurate Copyright Register populated only by works that
are actually entitled to registration. Both the public
and the Register benefit from a system that encourages applicants to provide only accurate information,
and to carefully comply with the regulations.
Indeed, the Copyright Office has put significant effort into developing regulations for registration, and it
provides resources to the public to educate copyright
owners, and guide them through the registration process. For example, as relevant here, the current regulations permit a copyright owner to register as one
work “all copyrightable elements that are otherwise
recognizable as self-contained works, that are included
in the same unit of publication, and in which the copyright claimant is the same.” 37 C.F.R. § 202.3(b)(4). 2
This regulation provides a copyright owner with an advantage: by publishing multiple individually copyrightable works together in a “unit of publication,” the
copyright owner can obtain registration of all such
works upon payment of a single registration fee. In addition, so long as the content includes at least some
copyrightable material, registration may be granted
even if the application includes material that could not
be registered on its own. If the “self-contained works”
were not first published in a single unit of publication,
the owner must either register each work separately,
or satisfy special requirements for group registration.
See 37 C.F.R. § 202.4.

2 The version of this regulation in force at the time Unicolors applied for registration used the term “single unit of publication,”
instead of “same unit of publication.”

8
The Copyright Office publishes its Compendium of
U.S. Copyright Office Practices as a guide for both copyright owners and Copyright Office staff. However,
knowing that many copyright owners handle the registration process without professional assistance, the
Copyright Office also publishes “circulars,” which provide information and instruction for the lay-public. For
example, Copyright Circular 1, “Copyright Basics,” includes a section entitled “What is Publication and Why
Is It Important?” U.S. Copyright Office, Circular 1:
Copyright Basics, at 7, available at https://www.copyright.gov/circs/circ01.pdf (hereafter, “Circular 1”). The
Circular explains that “publication is the distribution
of copies or phonorecords of a work to the public by sale
or other transfer of ownership or by rental, lease, or
lending.” Id. It identifies several important implications stemming from publication, and refers potential
applicants to Chapter 1900 of the Compendium for
more information. Id. Circular 34, “Multiple Works,”
explains in easy-to-understand terms the situations
where individual works can be registered together,
and what it means for works to be published together
in a “unit of publication.” U.S. Copyright Office, Circular 34: Multiple Works, at 6-7, available at
https://www.copyright.gov/circs/circ34.pdf. It warns
that “the requirements for registering a number of
works as a unit of publication are very specific, and
most works do not qualify for this option.” Id. at 6. The
Copyright Office also provides tutorials to guide laypersons through the registration process. See
https://www.copyright.gov/eco/tutorials.html.
While copyright owners cannot lose their copyrights due to even blatant or intentional inaccuracies
in the registration, every applicant for registration

9
must provide all the information required by the particular form, and must certify the truthfulness of the
information provided. 37 C.F.R. § 202.3(c)(2), (3). Section 411(b) gives teeth to these requirements by imposing a consequence for providing inaccurate information with knowledge that it is inaccurate—at least
when the inaccuracy is material to the registration.
Section 411(b) does more than simply deter fraud
in the application process. Respondent’s merits brief
cogently explains the wide gap between the statute’s
language—which uses the phrase “with knowledge”—
and the “intent to defraud” standard proposed by Unicolors in its petition for certiorari. Whereas “fraud” includes an element of intent to deceive, “knowledge” encompasses a broader state of mind. In addition, as explained by Respondent, statutes that adopt a
“knowledge” standard ordinarily use that word to refer
to both actual and constructive knowledge. The consequence imposed by Section 411(b) provides an incentive to copyright owners to take care in the registration
process, and to make sure the information they provide is accurate.
Notably, Petitioner’s brief studiously avoids stating
plainly what exactly Unicolors represented to the Copyright Office in its application for registration, or why
that information was inaccurate. By signing the application, Nader Pazirandeh certified that the designs included in the application were all published as a single
unit on January 15, 2011. (JA-228.) Putting it in terms
of the statutory definition, he certified that on January
15, 2011 copies of all those works were distributed “to
the public by sale or other transfer of ownership or by
rental, lease, or lending,” and that “all copyrightable

10
elements that are otherwise recognizable as self-contained works” were “included in a single unit of publication.” 17 U.S.C. § 101, 37 C.F.R. § 202.3(b)(4)(i)(A)
(2011); see also Circular 1, at 6-7.
The evidence at trial established that some of the
designs (i.e., self-contained works) included in the registration were not distributed to the public on January
15, 2011, or included in a single unit of publication, but
were instead only distributed internally to Unicolors’
salespeople. (Cert. Pet. App. 5a-6a.) To the extent
those salespeople later sent the “confined” designs to
private clients, such private distribution would not appear to satisfy the statutory definition of publication,
which refers to “distribution of copies . . . to the public
by sale or other transfer of ownership, or by rental,
lease, or lending.” 17 U.S.C. § 101 (emphasis added).
Nevertheless, the question whether private distribution to exclusive customers might have satisfied the
publication requirement is of little moment in this case
because Mr. Pazirandeh could not have reasonably
certified that all the designs included in the application were included in a “single unit of publication” in
any event. The term “single unit” is not susceptible to
any reasonable interpretation that would encompass
what Unicolors did. Thus, regardless of whether Mr.
Pazirandeh had the specific intent to deceive the Copyright Office, he could not have truthfully certified the
application. He would have had to ignore either the
facts or the meaning of the words “publication” and
“single unit.”
To hold that a copyright owner may, without consequence, certify an application for registration while ignoring either the facts or the meaning of terms that

11
are fundamental to the registration would be to strip
the certification requirement of all force. The regulations governing registration require a declaration stating “that the information provided within the application is correct to the best of the certifying party’s
knowledge.” 37 C.F.R. § 202.3(c)(3)(iii). This requirement necessarily assumes the certifying party has a
reasonable understanding of fundamental terms such
as “publication” and “single unit,” and that he or she
has actually confirmed the facts are as stated. Without
such knowledge, certification is meaningless.
II.

The predictions of dire consequences
resulting from the Ninth Circuit’s
straightforward interpretation of Section 411(b) are unfounded.

Contrary to Unicolors’ purported fears, holding copyright owners to the certifications in their applications—regardless of intent—does not mean copyright
owners will suffer widespread loss of the benefits of
their registrations due to good faith mistakes involving reasonable misunderstandings of the law. Citing
precedent involving an entirely different statute, Unicolors argues that a person cannot knowingly violate
the law if he or she acts pursuant to an erroneous, but
“not objectively unreasonable” statutory interpretation. (Pet. Br. At 40 (citing Safeco Ins. Co. of Am. v.
Burr, 551 U.S. 47, 69-70 (2007)).) Whether this principle should apply to Section 411(b)(1)(A) may be decided on another occasion. 3 It is clear in this case that
Indeed, the Ninth Circuit has expressly left open the possibility
that inaccuracy resulting from a reasonable misunderstanding of
the law might defeat a claim that the inaccuracy was included

3

12
Nader Pazirandeh’s inaccurate certification was not
based on any objectively reasonable statutory interpretation.
Here, Mr. Pazirandeh testified unequivocally that
the “confined” designs listed in the registration would
not have been distributed to the public for sale with
the other designs on January 15, 2011. (Cert. Pet. App.
4a-5a.) Rather, the only instance in which the designs
were distributed together was at an internal meeting.
(Cert. Pet. App. 5a-6a.). According to Mr. Pazirandeh,
“confined” designs were distributed to internal salespersons on January 15, 2011, but were withheld from
public distribution.
The term “publication,” as defined in the statute, is
not susceptible to an interpretation that distribution
to internal salespersons constitutes publication. See 17
U.S.C. § 101. Likewise, even assuming that a salesperson sending a single design to a private client could
constitute “publication,” the term “single unit of publication” as used in 37 C.F.R. § 202.3(b)(4) is not susceptible to an interpretation that would permit such a design to be registered as part of a single work with other
designs that were first published separately. The record contains no evidence suggesting Mr. .Pazirandeh

with knowledge. See Gold Value Int’l Textile, Inc. v. Sanctuary
Clothing, LLC, 925 F.3d 1140, 1147 (9th Cir. 2019) (“Although
Fiesta asserts that it did not believe that such sales constituted
publication as a matter of law, Fiesta provides no reasonable basis for this belief. Fiesta’s lack of authority or plausible explanation for its position distinguishes this case from others in which
a claimant’s good faith or inadvertent mistake did not constitute
a knowing inaccuracy.”).

13
even considered the meaning of the terms “publication” or “single unit,” or if he did that his interpretation could be considered reasonable.
Unicolors also cites a case from the Sixth Circuit,
which, for purposes of establishing “fraud on the Copyright Office,” required proof that the applicant acted
with either “an intention to secure an advantage in violation of the statute, or with a fraudulent purpose.”
(Pet. Br. 34 (citing Advisers, Inc. v. Wiesen-Hart, Inc.,
238 F.2d 706, 707 (6th Cir. 1956)).) Here, however, it
is undisputed that Unicolors represented to the Copyright Office that all the designs were published together on a particular date, and by doing so secured an
important advantage—namely, registration of multiple designs as a single work. Unicolors does not contend that it was entitled to this advantage. On the contrary, it is anticipated the Register of Copyrights will
confirm that if the application had disclosed the fact
that the designs were not actually published in a single unit, registration would have been refused.
III. District courts must request the Register of Copyrights’ advice regarding inaccurate information in any case where
inaccuracy is properly alleged.
This case is primarily concerned with the issue
whether the district court must find fraudulent intent
in order to invalidate a registration under Section
411(b). However, the question presented also asks
whether Section 411 requires referral to the Copyright
Office “where there is no . . . material error” in the registration. On that issue, Petitioner and its amici agitate for a rule first stated by the Seventh Circuit,

14
which held that district courts may refuse to seek the
Register of Copyrights’ advice on whether inaccurate
information in an application would have resulted in
refusal of registration unless the defendant first “establish[es] that the other preconditions to invalidity
are satisfied.” DeliverMed Holdings, LLC v. Schaltenbrand, 734 F.3d 616, 625 (7th Cir. 2013); see also
id. (“In other words, a litigant should demonstrate that
(1) the registration application included inaccurate information; and (2) the registrant knowingly included
the inaccuracy in his submission to the Copyright Office.”).
This rule flies in the face of the statute’s plain language. The Seventh Circuit acknowledged that “the
statute appears to mandate that the Register get involved ‘[i]n any case in which inaccurate information
[in an application for copyright registration] is alleged,” Id. (quoting 17 U.S.C. § 411(b)(2)) (emphasis
added). But based on a fear of potential abuse, DeliverMed Holdings purportedly authorizes district courts
to ignore the word “alleged,” and instead require a defendant to prove both inaccuracy and knowledge before
“question[ing] the Register as to whether the inaccuracy would have resulted in the application’s refusal.”
Id.
The rule stated in DeliverMed Holdings cannot be
squared with the language of the statute. Obviously, a
district court cannot seek the Register’s advice unless
and until the defendant alleges with some particularity how the information in the registration is inaccurate. But so long as the facts are adequately alleged,
the district court has no discretion to refuse to request

15
the Register’s advice as to whether the allegedly inaccurate information, if known, would have resulted in a
refusal. If Congress had intended to require defendants to prove their allegations prior to referral, it
would not have used the word “alleged” in the statute.
Petitioner and amicis’ warning that following the
statutory language will permit defendants to abuse
Section 411(b)(2) by needlessly increasing the plaintiff’s costs is unfounded. The Copyright Act permits eligible prevailing plaintiffs to recover attorney’s fees,
and Rule 11 of the Federal Rules of Civil Procedure
provides sanctions for making frivolous allegations.
See 17 U.S.C. § 505; Fed.R.Civ.P. 11(b)(3). As such, defendants have a vested interest in refraining from litigation conduct that unnecessarily increases the plaintiff’s costs. Courts cannot expect defendants will act
against their own interests by alleging inaccuracies in
a registration when their factual contentions lack evidentiary support.
Petitioner and amicis’ fear that defendants may
use referral to the Copyright Office as a delay tactic is
likewise unfounded. The statute requires referral in
any case where inaccuracy is alleged, but that does not
necessarily mean district courts must stay proceedings
while they await the Register’s advice. Where, as here,
evidence in the record supports an allegation that (1)
inaccurate information was included in an application
with knowledge that it was inaccurate, and (2) the
Register will likely confirm the inaccuracy, if known,
would have resulted in refusal of registration, a stay of
proceedings while awaiting the Register’s advice
would likely avoid unnecessary costs for both parties.

16
On the other hand, if a district court determines an allegation of inaccuracy has been made for an improper
purpose—such as to delay or needlessly increase
costs—the statutory language does not indicate a stay
of proceedings would be required. Whether a stay of
proceedings is either required or appropriate in any
given case can be determined on a case-by-case basis.
But ultimately the decision whether to delay a trial because of a Section 411(b)(2) referral lies with the district court—not the defendant.
IV. Interpreting Section 411(b)(1)(A) as it is
written is necessary to stem the flood of
litigation by copyright trolls.
Affirmance of the Ninth Circuit’s opinion is necessary—though almost certainly not sufficient—to stem
the flood of litigation brought by copyright trolls in the
district courts. Over the last two decades, a handful of
fabric companies—with Unicolors at the forefront—
have created a lucrative cottage industry of copyrightlitigation-for-profit. This glut of litigation is not due to
any widespread disrespect for copyright law among retailers. Rather, these cases are driven by the fact that
copyright litigation is extremely lucrative. Indeed, for
companies like Unicolors—who seem to have an unending pipeline of copyright claims—suing for copyright infringement is likely far more profitable than
selling print fabrics.
A search of “All Federal Dockets” in Westlaw for
Intellectual Property/Copyright suits involving “fabric
design” or “textile copyright infringement” filed after
January 1, 2006 identifies 1,841 cases. Of those cases,
the vast majority were brought by a relatively small

17
group of plaintiffs. A search of federal dockets in
PACER 4 reveals that the top ten fabric design plaintiffs 5 are responsible for 1,582 cases during that same
period. Of those ten litigants, Star Fabrics is by far the
most active (498 cases), with Unicolors coming in second (270 cases). Moreover, as the retail industry well
knows, Unicolors and other copyright trolls do more
than file complaints. In addition, they seek settlement
payments outside of court by sending hundreds of demand letters each year.
Of the 270 copyright cases filed by Unicolors in the
past fifteen years, 224 have been dismissed either voluntarily or by stipulation, indicating that Unicolors
successfully extracted settlement agreements—often
worth tens, and sometimes hundreds of thousands of
dollars. Unicolors obtained default judgments in
twelve cases, and accepted offers of judgment pursuant to Rule 68 in a handful of other cases. In short, for
companies like Unicolors who have mastered the art of
trolling, copyright litigation is very good business.
The profitable nature—and resulting prevalence—
of fabric design copyright lawsuits is attributable in
large part to the structure of the Copyright Act, which
minimizes any risk to plaintiffs for bringing a complaint, and maximizes the reward. Under Section
504(a) of the Copyright Act, “except as otherwise provided by this title, an infringer of copyright is liable for
either—(1) the copyright owner’s actual damages and
any additional profits of the infringer, as provided by
Searches in PACER are more comprehensive than Westlaw.
Star Fabrics, Unicolors, L.A. Printex, United Fabrics, Gold
Value, Universal Dyeing & Printing, Klauber Brothers, Neman
Brothers, Fabric Selection, and Standard Fabrics.
4
5

18
subsection (b); or (2) statutory damages, as provided
by subsection (c).” 17 U.S.C. § 504(a) (emphasis
added). In addition, so long as the copyright owner has
timely registered the copyright, it may also recover attorney’s fees as part of the costs. 17 U.S.C. § 505.
“Trolls” like Unicolors follow a very basic process to
exploit this system. First, they obtain ownership of
copyrights for fabric designs. They either pay design
studios a few hundred dollars per work for designs prepared by studio artists, or they hire in-house designers
to churn out prints on a daily basis. As reflected in the
market prices, the cost of creating these designs—
many of which are mere variations on themes that
have existed for centuries—is relatively low. Next,
they register the designs. While designs are sometimes
registered separately as individual works, Unicolors
and others habitually save money on registration fees
by including several designs in a single application.
They then release their designs into overseas markets
where they are most likely to be copied by other fabric
sellers, scour the domestic market for finished products featuring similar designs, and wait for any identified retailers to sell an appreciable amount of inventory. Finally, after the retailers have had a chance to
sell off a good part of their inventory, the trolls send
demand letters, or file complaints suing the retailers
and their vendors for (1) alleged actual damages plus
all profits received from the sales, or statutory damages—whichever is higher—and (2) costs and attorney’s fees.
While there may be some exceptions, fabric design
copyright claims take most retailers by surprise. Ap-

19
parel retailers ordinarily do not participate in the creation or selection of print designs in the first instance,
but instead simply choose finished products from their
vendor’s line. Retailers have no mechanism to determine whether any particular print design is not authorized for use by their vendor. For example, retailers
cannot peruse a catalog of designs that are registered
in the Copyright Office to determine whether any particular design is registered by any particular claimant.
Even if such a catalog existed, retailers would face an
impossible task of sifting through many thousands of
designs.
Instead of second-guessing their vendors with respect to copyright authorization, retailers must usually rely on the seller’s warranty that the prints are
authorized. Apparel vendors, in turn, must usually
rely on the fabric supplier’s warranty. Here, for example, the evidence demonstrated that H&M’s supplier
claimed to have created the print in question, and even
owned a Chinese copyright registration for it. (Resp.
Br. at 11.) Ultimately, retailers like H&M generally
purchase apparel in good faith, with the reasonable expectation that re-selling those goods will not infringe
any third party’s copyright.
Nevertheless, retailers have few options when presented with a copyright troll’s lawsuit, even when they
are completely innocent of any wrongdoing. A certificate of registration made before or within five years
after first publication yields a presumption that the
copyright is valid, and that the facts stated in the registration are true. 17 U.S.C. § 410(c). The Copyright
Office does not test the truthfulness of information in

20
applications for registration, but instead merely determines whether (1) “the material deposited constitutes
copyrightable subject matter,” and (2) “the other legal
and formal requirements of this title have been met.”
Id. § 410(a). In the absence of any substantive inquiry,
the presumption afforded by a registration certificate
ought to be weak. But as a practical matter, in most
cases retailers find the presumption of copyright validity afforded by a registration certificate insurmountable. The “bar for originality” is “famously low.” Skidmore as Tr. for Randy Craig Wolfe Tr. v. Led Zeppelin,
952 F.3d 1051, 1069 (9th Cir. 2020) (citing Feist Pubs.,
Inc. v. Rural Tel. Serv. Co., Inc., 499 U.S. 340, 345
(1991)). And while many—if not most—fabric prints
are likely based on preexisting designs, evidence that
the plaintiff’s design was copied from earlier work is
hard to find. 6
Moreover, defense costs are unavoidable, and unless a retailer can identify a strong affirmative defense
As highlighted in Respondent’s brief, Unicolors has been exposed on at least two occasions for claiming copyright protection
in a design copied from a pre-existing work. In Unicolors, Inc. v.
Charlotte Russe, Inc., the defendants presented evidence that
“two designs ‘virtually identical’ to the [Plaintiff’s allegedly copyrighted] Subject Design [were] contained in a book entitled The
Album of China Textile Patterns Vol. 13, which was published in
2007, [two years] before the creation of Unicolors’s work.” No.
2:15-CV-1283-CAS, 2015 WL 3477123, at *2 (C.D. Cal. June 1,
2015). Faced with this evidence—and unable to identify any artist who supposedly created the design independently—Unicolors
submitted to the entry of summary judgment. Id. And in Unicolors v. Burlington Stores (Central District of California Case No.
2:15-cv-3866), Unicolors claimed to own the copyright for a leopard print design that it copied almost entirely from a pre-existing
photograph.
6

21
early on, most filed cases carry a significant risk of
having to pay the plaintiff’s costs and attorney’s fees—
often well in excess of expected damages. In light of the
inherent cost and risk of litigation, retailers and/or
their vendors mostly have no choice but to settle the
claims by paying the troll’s ransom.
In most cases, the actual damage resulting from infringement of a fabric design copyright is very small.
As noted above, studios and in-house designers produce hundreds, if not thousands, of fabric print designs
every year at very low cost. The full market value of
the copyright for any one such work is ordinarily no
more than a few hundred dollars. Thus, even if an alleged infringement were to entirely destroy the copyright’s value, the plaintiff who owns a copyright worth
only a few hundred dollars cannot suffer more than a
few hundred dollars in actual damage. In this case, the
jury measured Unicolors’ damages in terms of lost
profits from the sale of fabric. (Cert. Pet. App. 6a). That
method does not measure actual damages with precision since it includes the value of a useful item—i.e.,
fabric—in addition to the value of the copyright. But
even using this inflated estimate, the jury calculated
Unicolors’ actual damage at only $28,800. In other
words, an award of $28,800 plus costs would have been
more than enough to remedy any actual damage suffered because of the alleged infringement.
If recovery for copyright infringement were limited
to actual damages, trolls like Unicolors would not find
infringement litigation to be more profitable than
simply utilizing the copyright. However, at least with
respect to apparel cases, the ability of copyright owners to recover the infringer’s profits often gives rise to

22
the prospect of significant windfalls. In particular, it
gives a fabric seller like Unicolors access to the profit
from the downstream sale of finished goods—profits
the fabric seller could not share in the absence of infringement.
As set forth in 17 U.S.C. § 504(a), the copyright
owner is entitled to recover “any additional profits of
the infringer” that exceed actual damages. These “additional profits” include “any profits of the infringer
that are attributable to the infringement and are not
taken into account in computing the actual damages.”
Id. § 504(b). This remedy is equitable in nature; it is
intended to prevent unjust enrichment and deter “‘efficient infringement’, i.e., situations where the profit
exceeded the licensing fee, leaving infringers indifferent as to whether they paid up front or paid in court.”
Walker v. Forbes, Inc., 28 F.3d 409, 412 (4th Cir. 1994).
If copyright plaintiffs employed the profits remedy
only to prevent unjust enrichment or deter efficient infringement, troll litigation might not be an issue. But
copyright trolls like Unicolors abuse the remedy to
seek windfalls far in excess of any possible unjust enrichment. According to the statute, a copyright owner’s
recovery of the infringer’s profits may be limited to
only that portion of the infringer’s profits that are (1)
attributable to the infringement and (2) not taken into
account in computing actual damages. 17 U.S.C. §
504(b). But the burden of proof on this issue is extremely favorable to the copyright owner. The copyright owner must merely “present proof of the infringer’s gross revenue,” whereas “the infringer is required to prove his or her deductible expenses and the

23
elements of profit attributable to factors other than the
copyrighted work.” Id.
Apparel retailers do not ordinarily realize any
profit from infringing fabric design copyrights. As explained above, retailers like H&M generally just purchase finished products from their vendors, subject to
and in reliance on the vendor’s warranty that the print
design on the fabric (if any) is fully authorized. 7 Because securing a license for the copyright is the responsibility of the vendor (or fabric supplier), retailers assume the cost of any licensing of such copyrights is already included in the price of the finished goods. Given
the nominal value of the copyright for any particular
print—perhaps a few hundred dollars—any cost to license the copyright for a fabric design is small, and has
little or no effect on the price of finished units. In other
words, a retailer who purchases finished goods at market prices does not save any money by purchasing
goods made from unauthorized fabric rather than
goods made from authorized fabric. Unless the vendor
passes along any savings it obtained from avoiding a
Retailers may present evidence that they relied in good faith on
their vendor’s warranty to prove they were not aware and had no
reason to believe their sales constituted infringement, and
thereby trigger a potential reduction in the floor for statutory
damages. See 17 U.S.C. § 504(c)(2). But a retailer’s reasonable
reliance on a warranty does not relieve it of liability for infringement, or have any effect on a copyright troll’s claim for actual
damages and profits. Nor does it guarantee statutory damages
will be minimal. Here, it appears H&M promptly investigated
Unicolors’ claims, and only refused to stop selling the accused
garments after it investigation confirmed the vendor claimed
ownership of the copyright. (Resp. Br. at 11-13.) Yet the jury still
found willfulness, and awarded nearly $850,000 in combined
damages and profits. (Cert. Pet. App. 6a.)

7

24
licensing fee by discounting the finished goods to a below-market price, the retailer does not benefit from the
infringement in any way. Rather, any profit to be made
from avoiding licensing costs is necessarily captured
upstream by the original infringer—usually an overseas fabric supplier.
Moreover, even if the profit that could be attributed
to infringement was not completely captured by an upstream infringer, the value of a finished garment offered for sale in a retail store is clearly attributable to
many factors that have nothing to do with the fabric
design. Unlike a book, music album, or painting—
whose value lies primarily in the copyrightable content—the value of clothing is primarily attributable to
factors such as the style of the garment, the quality of
materials used, the quality of workmanship, the goodwill of the garment label, and the goodwill of the retailer, just to name a few. Obviously, consumers are
willing to pay far more for a fashionable, durable, wellmade, name-brand garment selected from the sales
floor of a trend-setting retailer than they would pay for
a sheet of paper printed with a fabric design. The print
on the fabric may be one factor in a consumer’s decision to purchase a particular garment, but it is hardly
the only factor, or even the leading factor.
However, as a practical matter it is often difficult—
not to mention expensive—for a retailer accused of
copyright infringement to prove the apportionment of
its profit among factors other than the copyrighted
work. Defendants will ordinarily have to engage experts to testify about both apportionment and deductible expenses—testimony that a jury may or may not
accept.

25
The upshot is that in most cases, the likelihood that
a copyright troll may recover “infringer’s profits” far in
excess of actual damages is very high. For example, in
this case the jury awarded $817,920 as profit disgorgement—more than twenty-eight times Unicolors’ lost
profit. 8 (Cert. Pet. App. 6a.)
In some instances both damages and profits are
nominal, but in those cases a copyright plaintiff may
still seek a monetary windfall in the form of statutory
damages. In any case where statutory damages are
available, plaintiffs can recover as much as $30,000
per work—$150,000 if the infringement was willful—
even if they suffered no damage and the infringer obtained no benefit from the infringement. 17 U.S.C.
§ 504(c). Finally, since a prevailing plaintiff may be
awarded attorney’s fees and costs, copyright owners
such as Unicolors can ordinarily bring lawsuits on a
contingency fee basis—with practically no upfront cost
and very little risk—even if actual damages and infringer’s profits are nominal.
Copyright trolls like Unicolors often claim that lawsuits are the only way to protect their rights. But—
perhaps not surprisingly, given the profit to be made
from lawsuits—the retail industry is not aware of any
action they have taken to strike at the root of infringement. Nearly all of the infringement that matures into
litigation in the United States originates with copying
by fabric suppliers overseas. Here, evidence in the record apparently would have supported a finding that if
The trial judge conditionally granted a motion for new trial subject to Unicolors accepting a remittitur of damages to
$266,209.33. (Cert. Pet. App. 6a.) However, this figure is still
more than nine times Unicolors’ lost profits.

8

26
anyone copied Unicolors’ design, it was a Chinese entity named Shaoxing DOMO Apparel Company. 9
(Resp. Br. at 11). Make no mistake, trolls like Unicolors are not particularly concerned that infringement
by overseas fabric suppliers limits their ability to sell
fabric. On the contrary, Unicolors sees overseas infringement as a cash cow that allows it to milk retailers for profits it could not obtain simply by selling fabric.
In short, the copyright for any particular fabric design is worth very little, and the owners of such designs do not make significant profits from the copyright simply from selling fabric. Conversely, retailers
do not benefit from purchasing and reselling apparel
made from fabric bearing unauthorized designs. Nevertheless, a copyright troll like Unicolors can earn
handsome profits by registering copyrights in bulk, allowing the designs to be copied by overseas fabric
sellers, waiting for unsuspecting retailers to sell products made from unauthorized fabric, and then suing
the retailers and vendors for damages and profits, or
statutory damages. In light of the economics, it is no
surprise that courts in the United States have been inundated with fabric design copyright cases in recent
years.
Interpreting Section 411(b) as it is written will to
some extent curb the abusive practices by copyright

9 While H&M was apparently unable to present the evidence at
trial, it appears Shaoxing DOMO’s evidence may have supported
a finding of independent creation, or possibly that both the
Shaoxing DOMO and Unicolors designs were based on some
other preexisting work. (Resp. Br. at 13-14.)

27
trolls. In particular, affirming the Ninth Circuit’s opinion will deter Unicolors and other trolls from pursuing
litigation based on registrations that should have been
refused due to known inaccuracies in the application
for registration. To the extent Unicolors has provided
inaccurate publication information in several of its
bulk registrations, some of its claims may become ineligible for statutory damages and attorney’s fees. 10
And to the extent Unicolors or others have waited until
the last minute, and cannot both register and commence an action within the generous three-year statute of limitations, some additional claims might be
time-barred.
Nevertheless, affirming the Ninth Circuit’s opinion
will not give infringers a “Get Out of Jail Free” card,
or lead to any of the dire consequences Unicolors predicts. Unicolors complains that willful infringers
might game the system by forcing copyright owners—
specifically, copyright owners who provided materially
inaccurate information to the Register of Copyrights
with knowledge that it was inaccurate—to submit to
discovery and trial, then pull the rug out from under
them on a technicality, and collect their attorney’s fees
and costs. These fears are unfounded, particularly
since the ability to avoid such a scenario is entirely
within the power of the copyright owner.
First, Unicolors assumes most copyright owners
apply for registration without assistance from lawyers,
and from that premise concludes that many copyright
owners include materially inaccurate information on
10 So long as they properly register their claims, Unicolors and
other litigants will still be able to sue for actual damages and
profits.

28
their copyright applications with knowledge that it is
inaccurate, subject to good faith—albeit unreasonable—mistakes of law. (Pet. Br. at 44-48.) But assuming
it is common for copyright owners to apply for registration without legal help, and that material errors are
common, it is nevertheless uncommon for copyright
owners to pursue civil actions without professional assistance. Competent attorneys can and should review
a registration with their client for accuracy prior to filing suit, and assist their client to promptly fix any errors that might otherwise result in a dismissal under
Section 411(b). As Unicolors acknowledges, many errors can be easily corrected before litigation by filing
an application for supplemental registration. (Pet. Br.
at 52.) To the extent an error requires the copyright to
be re-registered in its entirety, fixing the error may reset the effective date of registration. In such a case, the
copyright owner might lose the right to recover statutory damages and attorney’s fees, but can still seek actual damages and the infringer’s profits. 11
In other words, the Ninth Circuit’s rule is not likely
to result in the “intolerable consequence” of “letting infringers off scot-free.” (Pet. Br. at 48.) Rather, it will
simply encourage copyright owners to be careful: first
when they apply for registration, and again when they
are considering filing a civil infringement action. So
long as copyright owners do not unreasonably delay after discovering infringement, they will have plenty of
time to cure any errors in their registrations prior to
11 Moreover, fixing the error will enable the copyright owner to
recover statutory damages and attorney’s fees should any other
person commence an infringement in the future. See 17 U.S.C.
§ 412.

29
filing suit. The “case-ending dismissals” Unicolors
dreads (Pet. Br. at 48) will only occur on the rare occasion where, as here, the copyright owner fails to take
appropriate care at both the registration and civil complaint stage.
Moreover, the copyright owner who fixes any registration issues prior to filing suit would not face the prospect of paying an infringer’s costs and attorney’s fees
unless the claim itself lacks merit. A successful Section
411(b) defense will only result in an infringer collecting attorney’s fees in cases where the copyright owner
chose to plow ahead with an action where the registration is invalid, and the claimant failed to review the
registration for accuracy prior to bringing suit. In light
of the statutory language, it is difficult to imagine a
consequence that would be more tolerable.
Finally, Unicolors warns that the “interplay among
all these consequences will yield perverse incentives,”
encouraging infringers to focus on technical defenses
rather than the merits, or to “run out the clock” before
asserting Section 411(b) in an effort to insulate ongoing infringement from statutory damages and attorney’s fees. (Pet. Br. at 50-51.) And “on the flip side,”
Unicolors cannot identify any legitimate interest to be
served by the rule adopted by the Ninth Circuit. (Pet.
Br. at 51-52.) But these are arguments against the
statute itself. For better or worse, Congress decided to
impose a consequence for including materially inaccurate information in an application to register a copyright. The narrow defense provided by Section 411(b)
is not improper simply because it is technical in na-

30
ture. And copyright owners can easily avoid the relatively mild consequences of Section 411(b) simply by
being careful and honest at every stage of the process.
V.

Conclusion

If the Court does not dismiss the petition as improvidently granted, it should affirm.
Respectfully submitted,
STEPHANIE A. MARTZ
NATIONAL RETAIL FEDERATION

1101 New York Ave, NW
Suite 1200
Washington, DC 20005

SAMUEL G. BROOKS
Counsel of Record
CALL & JENSEN, APC
610 Newport Center Dr.
Suite 700
Newport Beach, CA 92660
(949) 717-3000
sbrooks@calljensen.com

